No. 20-618

In the
Supreme Court of the United States

KELLY GEORGENE ROUTTEN,
Petitioner,
v.
JOHN TYLER ROUTTEN,
Respondent.

On Petition for Writ of Certiorari to the Supreme
Court of North Carolina

BRIEF AMICUS CURIAE OF
THE JUSTICE FOUNDATION
in Support of the Petition

Matthew D. Doane
Clinton J. Elliott
Doane & Elliott, PSC
120 E. Adams St., Suite 2
La Grange, KY 40031
(502) 602-0008

Allan E. Parker, Jr.
Counsel of Record
The Justice Foundation
8023 Vantage Dr., Suite 1275
San Antonio, TX 78230
(210) 614-7157
Parker4justice@gmail.com

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................... ii
INTEREST OF AMICUS CURIAE ......................... 1
SUMMARY OF THE ARGUMENT ........................ 2
ARGUMENT .............................................................. 4
I.

THE COURT SHOULD GRANT
THE PETITION TO CLARIFY
THE APPROPRIATE TEST
COURTS MUST USE IN
ADJUDICATING PARENTS’
FUNDAMENTAL RIGHTS OF
CARE, CUSTODY, AND
CONTROL OF THEIR CHILDREN ........... 4

II.

THE COURT SHOULD GRANT
THE PETITION TO CLARIFY
THE LEVEL OF SCRUTINY
COURTS MUST USE IN
ADJUDICATING PARENTS’
FUNDAMENTAL RIGHTS OF
CARE, CUSTODY, AND
CONTROL OF THEIR CHILDREN ........... 8

CONCLUSION ........................................................ 10

ii
TABLE OF AUTHORITIES
Page(s)
Cases
In Re: J.R.D. and R.C.D.,
169 S.W.3d 740 (Tex.
App. 2005)......................................................... 9
Pierce v. Society of Sisters,
268 U.S. 510 (1925) ...................................... 4, 9
Routten v. Routten,
843 S.E.2d 154 (2020) ............................... 3, 5-6
Stanley v. Illinois, 405 U.S. 645 (1972) .................. 4, 7
Troxel v. Granville, 530 U.S. 57 (2000) ........... 4-5, 7, 9
Washington v. Glucksberg, 521 U.S. 702 (1997) ........ 4
Wisconsin v. Yoder, 406 U.S. 205 (1972) ................ 4, 5
Other Authorities
Eugene Volokh, “Parent-Child Speech
and Child Custody Speech Restrictions,”
81 N.Y.U. L. Rev. 631 (2006) ........................... 6
House Resolution 547 (November 16, 2005) .............. 5
Janet Weinstein, And Never the Twain
Shall Meet: The Best Interest of Children
and the Adversary System, 52 U. Miami
L. Rev. 79, 108 (1997)....................................... 6

1
INTEREST OF AMICUS CURIAE
Pursuant to Supreme Court Rule 37, The
Justice Foundation respectfully submits this brief
Amicus Curiae in support of Petitioner Kelly
Georgene Routten.1
The Justice Foundation is a 501(c)(3)
charitable foundation that provides free legal
representation in cases to protect individual and
parental rights and to promote appropriate limited
government. The following summarizes its position
in this regard:
We believe in protecting children from
those who would destroy their innocence
and exploit them for their own purposes.
On the whole, parents are the best
protectors of children and have the
natural right and duty for the care,
custody, and control for their children.
Children, in the main, are naturally

Pursuant to this Court’s Rule 37.2, all Parties with
Counsel listed on the docket have consented to the filing
of this Brief. Counsel of Record for all listed Parties
received notice at least 10 days prior to the due date of
the Amicus Curiae’s intention to file this Brief.
1

Pursuant to Rule 37.6, Amicus Curiae affirms that no
Counsel for any Party authored this Brief in whole or in
part, and no Counsel or Party made a monetary
contribution intended to fund the preparation or
submission of this Brief. No person other than Amicus
Curiae, its members, or its counsel made a monetary
contribution to its preparation or submission.

2
incapable of exercising self-government
until reaching the age of majority.
The Justice Foundation was selected by the
Texas State Board of Education to be one of the
official evaluators of the State’s open enrollment
charter school program in which private operators
are entitled to run public open enrollment charter
schools as part of the public school system. The
Justice Foundation’s President, Allan E. Parker, Jr.,
in the past has represented public school districts for
many years as an attorney and has taught Education
Law at St. Mary’s University School of Law in San
Antonio, Texas.
This case is important to every parent who
seeks to assert their right to determine the
upbringing and education of their child as a state,
federal, natural, and God-given right. The Justice
Foundation submits that its experience and interest
will provide a useful additional viewpoint to assist
the Court in its consideration of Petitioner’s petition.
SUMMARY OF THE ARGUMENT
This case centers upon the very cornerstone of
our society: the family. Deeper still, this case involves
the intersection of the family and the law: parents’
fundamental rights in directing the care, custody,
and control of their children as a family and the
State’s power to affect, limit, or even terminate those
rights.
This Court has determined that parents have
a fundamental right to direct the care, custody, and
control of their children. This Court also has

3
determined that the government shall not interfere
with this right unless and until a parent is proven
unfit. In contradiction to this determination, the
North Carolina Supreme Court in the case below
declared protection of that fundamental right
irrelevant in a custody dispute between two natural
parents. Routten v. Routten, 843 S.E.2d 154, 159
(2020). Instead, the North Carolina Supreme Court
upheld the trial judge’s denial of custody and
reasonable visitation to the Petitioner based on the
judge’s findings related to the best interest of the
child, even though the trial judge did not find the
mother unfit. Id. at 159. The holding below directly
contradicts this Court’s recognition of parents’
primary and fundamental rights in the care, custody,
and control of their children.
No doubt contributing to this contradiction,
this Court has not clearly articulated the appropriate
test for adjudicating the protection of parents’ right
when involving both natural parents. This Court also
has not clearly articulated the level of scrutiny in
judicial review of parents’ fundamental right in such
cases. To safeguard against such government
infringement and avoid such contradictions in state
courts, this Court should explicitly adopt a national
standard articulating both the appropriate test and
the appropriate level of scrutiny consistent with the
Constitution and this Court’s precedent.
This case presents the opportunity for the
Court to unequivocally articulate the fitness of the
parent as that test and strict scrutiny as that level of
scrutiny for judicial review. Indeed, this case
presents the appropriate vehicle to do so because it
involves the rights of two natural parents. Therefore,

4
this Court should grant the Petition for Writ of
Certiorari.
ARGUMENT
I.

THE COURT SHOULD GRANT THE
PETITION TO CLARIFY THE APPROPRIATE TEST COURTS MUST USE IN
ADJUDICATING
PARENTS’
FUNDAMENTAL RIGHTS OF CARE, CUSTODY,
AND CONTROL OF THEIR CHILDREN.

Nearly one hundred years ago, this Court
acknowledged that “the child is not the mere
creature of the State; those who nurture him and
direct his destiny have the right, coupled with the
high duty, to recognize and prepare him for
additional obligations.” Pierce v. Society of Sisters,
268 U.S. 510 (1925). Thereafter, in Stanley v. Illinois,
405 U.S. 645 (1972), this Court affirmed the
fundamental
rights
of
parents
“in
the
companionship, care, custody, and management” of
their children. Id. at 651. That same year, in
Wisconsin v. Yoder, 406 U.S. 205 (1972), the Court
declared that “[t]his primary role of the parents in
the upbringing of their children is now established
beyond debate as an enduring American tradition.”
Id. at 232.
More recently, this Court declared in
Washington v. Glucksberg, 521 U.S. 702 (1997), that
the Constitution, and specifically the Due Process
Clause of the Fourteenth Amendment, protects the
fundamental right of parents to direct the care,
upbringing, and education of their children. Id. at
720. And in Troxel v. Granville, 530 U.S. 57 (2000),

5
this Court again unequivocally affirmed the
fundamental right of parents to direct the care,
custody, and control of their children.
In Troxel, this Court stated that “so long as a
parent adequately cares for his or her children (i.e.,
is fit), there will normally be no reason for the State
to inject itself into the private realm of the family to
further question the ability of the parent to make the
best decisions concerning the rearing of that parent’s
child.” 530 U.S. at 68-69 (emphasis added).
Therefore, a failure to consider the fitness of the
parent represents “an unconstitutional infringement
on [that parent’s] fundamental right to make
decisions concerning the care, custody, and control”
of her children. 530 U.S. at 72. In fact, so inviolable
and sacred is this right that this Court declared a
presumption that “a fit parent will act in the best
interest of his or her child.” Id. at 69. Yet, in the case
below, the North Carolina Supreme Court expressly
rejected allowing this presumption in favor of the
natural mother of the children. Routten, 843 S.E.2d
at 159.
In 2005, quoting Yoder and Troxel in response
to a public school district’s subjection of children to
inappropriate and sexually explicit content, the
United States House of Representatives affirmed
that “the fundamental right of parents to direct the
education of their children is firmly grounded in the
Nation’s Constitution and traditions.” House
Resolution 547 (November 16, 2005). Yet today, State
courts of last resort throughout the United States are
split, adjudicating children as “creatures of the
State” by limiting or terminating parents’ rights
through using a subjective “best interest of the child”

6
test or by evaluating some level of “harm” to the
child. In fact, in the case below, the North Carolina
Supreme Court determined that, in a dispute
between two natural parents, “the trial court must
apply the ‘best interest of the child’ standard to
determine custody and visitation questions.” Routten,
843 S.E.2d at 159. Such a test blatantly violates the
fundamental rights of natural parents, not only in
custody and termination cases, but also in separation
agreements where extra protection may be necessary
due to inequality among spouses.
In that regard, scholars recognize that the
“best interest of the child” standard provides “no
standard at all because of its vagueness” and
uncertainty. See, e.g., Janet Weinstein, And Never
the Twain Shall Meet: The Best Interest of Children
and the Adversary System, 52 U. Miami L. Rev. 79,
108 (1997). As Notre Dame Law School Professor
Eugene Volokh recognized, courts applying “the best
interest of the child” test in parent custody cases
violate sacred, fundamental, constitutional rights of
those parents. See Volokh, “Parent-Child Speech and
Child Custody Speech Restrictions,” 81 N.Y.U. L.
Rev. 631 (2006). Professor Volokh also recognized
that “harm” analyses have significant limits,
foremost being their highly subjective nature and
risk of the fact-finder’s personal hostilities entering
into the determination. Volokh, supra at 700.
Essentially, both tests violate the due process rights
of parents guaranteed by the Fourteenth
Amendment to the Constitution if the fitness of the
parents is disregarded. Yet today, some State courts
still apply these inappropriate tests without first
making the required constitutional finding of a
parent’s unfitness. As a result, these courts continue

7
to violate the fundamental right of parents to direct
the care, custody, and control of their children.
While the Court has alluded to the fitness of
the parent test in the past, the Court has not
articulated the exact standard in these cases. See
Troxel, 530 U.S. at 73 (“We do not, and need not,
define today the precise scope of the parental due
process right in the visitation context”). Given the
complexities of the modern family dynamic and the
high-stakes interest of the parties involved in these
cases, Amicus Curiae submits that the time has come
for the Court to adopt the fitness of the parent test as
the appropriate standard moving forward for cases
involving both natural parents.
This case presents the ideal vehicle for this
Court to clearly articulate the fitness of the parents
test as the appropriate test for all State courts
because this case involves a lower court’s review of
the rights of both natural parents. Troxel, while
providing cogent precedent, involved the rights of a
natural parent and the rights of grandparents after
the children’s father died. Stanley, likewise, is
analytically different because it involved the natural
but unwed father of the children who had been
declared wards of the state after their mother died.
As demonstrated in Petitioner’s Petition, App. 2a,
this case involves two natural biological parents,
both of whom have fundamental rights protected
from unwarranted government interference by the
Fourteenth Amendment and both of whom seek care,
custody, and control of their children. Only the
fitness test protects the constitutional rights of both
natural parents in a custody case such as that
presented in this Petition.

8
II.

THE COURT SHOULD GRANT THE
PETITION TO CLARIFY THE LEVEL OF
SCRUTINY COURTS MUST USE IN
ADJUDICATING
PARENTS’
FUNDAMENTAL RIGHTS OF CARE, CUSTODY,
AND CONTROL OF THEIR CHILDREN.

In addition to articulating the appropriate
test, this Court also has the opportunity to clearly
articulate the appropriate level of scrutiny courts
should use in adjudicating parents’ constitutional
rights of care, custody, and control of their children.
As one State court judge explained regarding the
failure of State courts and judges to follow what this
Court has suggested as the appropriate standard:
Despite the United States Supreme
Court’s
determination
to
subject
infringement upon such fundamental
rights to strict scrutiny and of our own
legislature’s mandate to preserve and
foster parent-child relationships . . .
courts have developed a jurisprudence
under which trial court decisions
severely curtailing that relationship
stand absent an abuse of discretion.
Considering the importance of and the
risk to the rights at issue and the
legislature’s clear mandates that courts
take measures to protect this most
sacred of relationships, I believe we
need to carefully re-examine the
standards by which decisions that limit
a parent’s access to or possession of a
child are made and reviewed.

9
In Re: J.R.D. and R.C.D., 169 S.W.3d 740, 752 (Tex.
App. 2005) (Puryear, J., concurring) (internal
citations omitted).
Because these cases involve such deeply
grounded fundamental rights guaranteed under the
Constitution to the parents, courts must consistently
apply the appropriate level of judicial scrutiny. In
this regard, just as the fitness of the parent test alone
satisfies the constitutional requirements, only strict
scrutiny will suffice for judicial review in these
situations.
In his concurring opinion in Troxel, Justice
Thomas summarized an important aspect of this
Court’s precedential opinion in Pierce v. Society of
Sisters, 268 U.S. 510 (1925), writing that “parents
have a fundamental constitutional right to rear their
children, including the right to determine who shall
educate and socialize them.” Troxel at 80 (Thomas,
J., concurring). This fundamental right is just as
critical and sacred today as when Justice Thomas
wrote those words twenty years ago and when this
Court cemented that truth in 1925. Justice Thomas
proceeded to the next step in the analysis by
concluding: “I would apply strict scrutiny to
infringements of fundamental rights.” Id.
Amicus Curiae agrees that strict scrutiny is
the appropriate level of review and submits that this
issue alone, as presented in this case, supports this
Court granting the Petition. Petitioner Kelly Routten
now provides this Court with the ideal opportunity to
declare the appropriate level of scrutiny for the
courts of this nation to apply.

10
CONCLUSION
This Petition presents the ideal opportunity
for this Court to resolve the conflict among the States
and articulate one test – the fitness of the parent test
– for adjudicating natural parents’ rights in the care,
custody, and control of their children. The North
Carolina Supreme Court, in the opinion below,
declared this test irrelevant.
This Petition also presents the ideal
opportunity for this Court to resolve the conflict
among the States and articulate one standard of
review – strict scrutiny – when reviewing the
fundamental rights of natural parents in the care,
custody, and control of their children. The North
Carolina Supreme Court, in the opinion below,
required no such level of review.
In today’s world, family dynamics are always
changing, especially in an era of ever-increase
divorce rates. Even in the face of such change,
however, constitutional rights remain steadfast.
Therefore, Amicus Curiae respectfully submits that
this Court should grant the Petition for review.
Respectfully submitted
This 7th day of December, 2020,
/s/ Allan E. Parker Jr.

Allan E. Parker Jr.
Counsel of Record
The Justice Foundation
8023 Vantage Dr., Suite 1275
San Antonio, TX 78230
(210) 614-7157; Parker4justice@gmail.com

11
Matthew D. Doane
Clinton J. Elliott
Doane & Elliott, PSC
120 E. Adams St., Suite 2
La Grange, KY 40031
(502) 602-0008

